                                    INSPECTO        GENERAL
                                    DEPAR MENT OF DEFENSE
                                       400 ARMY NAVY DRIVE
                                 ARLlI'JGTON, VIRGINIA 22202-4704




                                                                                     March 19, 2008

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
               UNDER SECRETARY OF DEFENSE (COMPTROLLER)/CHIEF
                 FINANCIAL OFFICER
               ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL
                 MANAGEMENT AND COMPTROLLER)
               NAVAL INSPECTOR GENERAL
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: RepOli on FY 2006 and FY 2007 DoD Purchases Made Through the Department of the
         Intelior (Report No. D-2008-066)


        We are providing this report for review and comment. The Department of the Army did not
respond to the draft report; however, we considered comments from the Office of the Under
Secretary of Defense (Comptroller)/ChiefFinancial Officer; the Department of the Navy; and the
Depaltment of the Air Force on a draft of this report in preparing the final report. Although not
required to comment, the Office of the Under Secretary of Defense for Acquisition, Technology, and
Logistics also provided comments on the draft report.

       DoD Directive 7650.3 requires that all recommendations be resolved promptly. Therefore,
we request that the Department of the A1my provide comments on Recommendation A. by
April 21, 2008.

        If possible, please send management comments in electronic format (Adobe Acrobat file
only) to AudACM@dodig.mil. Copies of the management comments must contain the actual
signature ofthe authorizing official. We cannot accept the / Signed / symbol in place of the actual
signature. If you arrange to send classified comments electronically, they must be sent over the
SECRET Internet Protocol Router Network (SIPRNET).

       We appreciate the courtesies extended to the staff. Questions should be directed to me at
(703) 604-9201 (DSN 664-9201) or Mr. Terry L. McKinney at (703) 604-9288 (DSN 664-9288).
See Appendix G for the repmi distribution. The team members are listed inside the back cover.



                                       ~/rJ~~   Richard B. Jolliffe
                                          Assistant Inspector General
                                      Acquisition and Contract Management

cc: Inspector General, Department of the Interior
